                                              NATIONAL SCIENCE FOUNDATION
                                              OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

Case Number: M0012%0038


     In November 2000, the Department of Energy (DOE) Office of Inspector General
                                                                                     Page 1of 1



     (OIG) forward to the NSF OIG a n allegation of misconduct in science it had received
                                                                                                  I
     from a confidential source (CS). CS alleged the subject (S1),1 whose research was
     DOE funded, falsified data in a paper published in a scientific journal.2 Because the
     allegedly falsified data were relevant to a previous NSF OIG investigation,3 DOE
     OIG determined t h a t NSF OIG working with the DOE Office of Science would
     better handle the allegation. After discussing the matter with CS, we learned his
     allegations of falsification also involved two subjects (S24 and S35) who received
     NSF funding. Specifically, CS alleged the subjects7misrepresented and omitted
     data from their publication so a s to discredit the subject of the previous NSF OIG
     investigation.

     We wrote the subjects to ask them to respond to the allegations. S 1 essentially
     admitted t h a t he made no personal contribution to the substantive content of the
     paper, claiming S2 and S 3 did the experiments, analyzed the data, and picked
     which data to put in the publication. S2 and S3, who worked a t the same
     laboratory, explained the rationale associated with the data t h a t were omitted from
     the paper. They explained that some of the omitted data were calibration data that
     were not independent from the data in the paper, and the subjects used their
     prerogative to omit some data they deemed not relevant to the anticipated
     readership of the paper. Their explanations were credible given the standards of
     data quality t h a t are considered acceptable in this field. There is insufficient
     substance to pursue the allegation; accordingly, this case is closed and no further
     action will be taken.




         1 (footnote redacted).
         2 (footnote redacted).
         3 This case is related to a previous case-M96090025-in   our office.
         4 (footnote redacted).
         5 (footnote redacted).



                        Agent                   Attorney                Supervisor         AIGI

 Sign / date
